  Report No. D-2008-034          January 3, 2008




Financial Management at the Defense Security Service
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DSS                   Defense Security Service
FAR                   Federal Acquisition Regulation
FM                    Financial Management
FMR                   Financial Management Regulation
MIPR                  Military Interdepartmental Purchase Request
NISP                  National Industrial Security Program
OPM                   Office of Personnel Management
PSI                   Personnel Security Investigation
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704


                                                                           January 3, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
               DIRECTOR, DEFENSE SECURITY SERVICE

SUBJECT: Report on Financial Management at the Defense Security Service
         (Report No. D-2008-034)


        We are providing this repOli for review and comment. We performed this audit in
response to a request from the Director, Defense Security Service. This report discusses a
potential violation of the Antideficiency Act. In accordance with DoD
Regulation 7000.14-R, "Financial Management Regulation," volume 14, chapter 3.e.,
action to review the potential violation must be initiated within 10 days.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Office of the Under Secretary of Defense for Intelligence and the Defense Security
Service did not provide comments to the draft report. Therefore, we request the Director,
Defense Security Service provide comments on Recommendation 1. and the Office of
Under Secretmy of Defense for Intelligence provide comments on Recommendation 2. by
Febmmy 4,2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudROS@dodig.mil. Copies of the management comments must
contain the actual signature ofthe authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Intemet Protocol Router Network
(SIPRNET).

       We appreciate the comiesies extended to the staff. Questions should be directed
to Ms. Kimberley A. Caprio at (703) 604-9202 (DSN 664-9202) or Ms. Rhonda L.
Ragsdale at (703) 604-9347 (DSN 664-9347). See Appendix E for the report distribution.
The team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:



                                   tJl           I


                                                      ASi" t
                                                     C·

                                         Wanda A. Scott
                                                             /C::;'~_'
                                           fJ/fV-£~' - -.,. .()/(y
                                         Assistant Inspector General
                                         Readiness and Operations Support
               Department of Defense Office of Inspector General
Report No. D-2008-034                                                    January 3, 2008
   (Project No. D2006-D000LC-0230)

           Financial Management at the Defense Security Service

                                 Executive Summary

Who Should Read This Report and Why? The Under Secretary of Defense
(Comptroller)/Chief Financial Officer; the Under Secretary of Defense for Intelligence;
the Director, Defense Security Service and the DSS Comptroller should read this report.
The report discusses difficulties the Defense Security Service experienced identifying
and managing financial requirements and complying with appropriation law and
regulations.

Background. The Defense Security Service is the DoD organization responsible for
providing DoD and other Federal Government agencies with a full range of security
support services. On January 24, 2003, the Deputy Secretary of Defense and the Director
of the Office of Personnel Management agreed to transfer the personnel security
investigation function from the Defense Security Service to the Office of Personnel
Management. In February 2005, the Defense Security Service transferred the
investigation function, including 1,800 personnel security investigation positions and
$33.8 million, to the Office of Personnel Management. The Defense Security Service
retained responsibility for managing and funding personnel security investigations for
contractor personnel. In June 2006, the Director of the Defense Security Service
requested that we review the agency’s financial management practices.

The Financial Management Division of the Defense Security Service has five branches:
Budget Formulation, Budget Execution, Accounting, Performance Improvement, and
Audit Readiness. The Comptroller, with the assistance of these five branches, is
responsible for the agency’s financial management functions, including enforcing
internal controls to prevent Antideficiency Act violations and ensuring that resources are
used efficiently and effectively.

Results. The Defense Security Service has taken steps to improve its financial
management functions, but experienced difficulties in managing some aspects of
financial management from FYs 2002 through 2007. The Defense Security Service
should develop, implement, and monitor management controls to accurately estimate the
cost of personnel security investigations; properly manage financial functions including
obligations, accounts receivable, and contracting actions; and comply with regulations
and appropriation laws. In addition, the Defense Security Service should initiate a
preliminary review to determine whether it violated the Antideficiency Act by incorrectly
using appropriated funds, and fill key financial management positions. While the
Defense Security Service develops, implements, and monitors management controls, the
Under Secretary of Defense for Intelligence should monitor financial management
functions at the Defense Security Service. As the Defense Security Service continues
making changes to its financial management practices and develops a more stable
structure, it will be able to prepare supportable budget estimates and requests and ensure
that it has adequate resources to perform its critical missions.
We identified a material internal control weakness. Defense Security Service did not
have a system of management controls over some financial management practices to
ensure sound business practices were performed and financial regulations were met.
Implementing Recommendation 1. would improve the financial management process.
See the Finding section for the detailed recommendations.

Management Comments. We provided a draft of this report on October 5, 2007, and
management comments were due on November 5, 2007. No management comments
were received; therefore, we request that the Under Secretary of Defense for Intelligence
and the Director, Defense Security Service comment on this report by February 4, 2008.




                                            ii
Table of Contents

Executive Summary                                                      i

Background                                                            1

Objectives                                                            2

Review of Internal Controls                                           3

Finding
     Controls Over Financial Management at Defense Security Service    4

Appendixes
     A.   Scope and Methodology                                       25
     B.   Prior Coverage                                              27
     C.   Timeline of Events and Key Personnel                        28
     D.   Status of DSS Policies and Procedures for FM Functions      29
     E.   Report Distribution                                         30
Background
            We performed this audit in response to a July 2006 request from the Director,
            Defense Security Service (DSS). The Director, DSS requested assistance in
            assessing the effectiveness of the financial management (FM) functions within
            DSS.

            Transition at DSS. Until February 2005, DSS was responsible for performing
            personnel security investigations (PSIs) for DoD military and civilian personnel
            as well as for contractor personnel for DoD and 23 other Federal agencies. On
            January 24, 2003, the Deputy Secretary of Defense and the Director of the Office
            of Personnel Management (OPM) agreed in principle to transfer the PSI function
            from DSS to OPM. On October 16, 2004, DoD and OPM finalized that
            agreement. In February 2005, DSS transferred approximately 1,800 PSI positions
            and $33.8 million to OPM. As a result, OPM is now responsible for conducting
            90 percent of the PSIs in the Federal Government.1 In September of each year,
            OPM establishes and publishes the rates it charges all Federal agencies for each
            type of PSI. However, during FYs 2005 and 2006, OPM charged DoD a
            surcharge of up to 25 percent on each PSI request, terms agreed to as part of the
            transfer.

            After the transfer, DSS continued to be responsible for the adjudication of
            security clearances for contractor personnel from DoD and the 23 other Federal
            agencies.2 Adjudication is the process of assessing a person’s trustworthiness and
            fitness for a security clearance by reviewing all the information provided during
            the PSI and granting or denying the requested type of clearance.

            Leadership Turnover. Between November 2004 and March 2007, DSS was led
            by three Acting Directors. The first held the position for 12 months; the second
            held the position for 6 months and was triple-hatted as the Acting Director, the
            Chief Operating Officer, and the Chief Information Officer. The third Acting
            Director was appointed in June 2006 and selected as the permanent DSS Director
            in March 2007. Among other top positions, prior to July 2006, DSS also did not
            have a permanent Deputy Director, Chief of Staff, or Chief Information Officer.
            Since August 2007, the current DSS Director has successfully filled these
            permanent positions. See Appendix C for a timeline of the changes in key
            leadership positions at DSS from January 2002 through August 2007.

            DSS Mission and Functions After Transfer. DSS is the DoD organization
            responsible for providing the Secretary of Defense, DoD Components, Federal


1
    The other organizations that conduct PSIs include the Department of State, the Department of Homeland
     Security, the Federal Bureau of Investigation, and other intelligence community activities.
2
    DSS continues to perform adjudication for confidential, secret, and top secret security clearances for
    contractor personnel, while the Military Departments, Joint Chiefs of Staff, and Defense Agencies
    perform adjudication for confidential, secret, and top-secret clearances for DoD military and civilian
    personnel. The Military Departments, Defense Intelligence Agency, and National Security Agency
    perform adjudications for DoD military and civilian personnel and contractor personnel requiring
    clearance levels above top secret.


                                                        1
           Government contractors, and 23 other Federal agencies with a full range of
           security support services. DSS has three components.

                    •    The National Industrial Security Program (NISP) is responsible for
                         overseeing, assisting, and monitoring contractor facilities and
                         contractors that require security clearances to conduct business with
                         DoD as well as with 23 other Federal agencies. NISP oversees
                         approximately 11,000 contractor facilities and their employees that are
                         cleared for access to classified information.

                    •    The Personnel Security Clearance Office3 encompasses four offices
                         and one program: the Clearance Liaison Office, the Defense Industrial
                         Security Clearance Office, the Polygraph Office, the
                         Counterintelligence Office, and the PSI for Industry Program. In total,
                         the Personnel Security Clearance Office serves as the point of contact
                         within DoD for personnel security operations, polygraph
                         examinations, and counterintelligence support to DoD, and functions
                         as the liaison between DoD and OPM. The PSI for Industry Program
                         centrally identifies, manages, and finances the cost of PSIs for
                         contractors, while the Defense Industrial Security Clearance Office
                         adjudicates security clearances for contractor personnel.

                    •    The Security Education, Training, and Awareness Program provides
                         security education and training to DoD security program professionals
                         and develops security awareness products for their use.

           The DSS Director reports to the Under Secretary of Defense for Intelligence, who
           serves as the senior DoD security official. The Under Secretary of Defense for
           Intelligence has direct authority, direction, and control over DSS operations.

           For FY 2006, DSS was authorized 582 civilian personnel, and spent
           approximately $345 million in appropriated funds, which included an $80 million
           congressional reprogramming of funds. The congressional reprogramming
           allowed DSS to continue operations including processing PSI for Industry
           requests. For FY 2007, DSS was again authorized 582 civilian personnel and
           received an appropriation of approximately $324.6 million in operation and
           maintenance funds. Between April and August 2007, DSS received $32 million
           in additional funds for the remainder of FY 2007.


Objectives
           Our overall audit objective was to determine whether DSS had effective
           management controls over FM. Specifically, our objective was to evaluate
           controls over budgeting and managing funds for DSS operations, including
           payments for PSIs. We evaluated the controls over FM before, during, and after
           the transfer of the PSI function to OPM. We did not evaluate the costs associated

3
    The Personnel Security Clearance Office, until fall 2006, was known as the Collaborative Adjudication
     Service.


                                                       2
     with the transfer of the PSI function to OPM because DoD Inspector General
     Report No. D-2007-083, “Transition Expenditures for DoD Personnel Security
     Investigations for FY 2005,” April 10, 2007, addressed the subject. Specifically,
     that report assessed the DSS controls in place to ensure accuracy of OPM
     invoices before making payments. See Appendix A for a discussion of the scope
     and methodology and Appendix B for prior audit coverage related to the
     objectives.


Review of Internal Controls
     We identified a material internal control weakness for DSS as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
     January 4, 2006. DSS did not develop an effective system of internal controls
     over its FM practices to ensure that it:

            •   complied with Federal and DoD regulations regarding the use of
                appropriated funds, as well as with appropriation law and regulations;
                and

            •   provided personnel with the necessary resources to properly develop,
                execute, analyze, and monitor the DSS annual budget.

     Implementing Recommendation 1. would improve controls over and monitoring
     of DSS FM functions, requirements, and operations. A copy of the final report
     will be provided to the senior official responsible for management controls in
     DSS and in the Office of the Under Secretary of Defense for Intelligence.




                                         3
           Controls Over Financial Management at
           Defense Security Service
           DSS has taken steps to improve FM, but experienced difficulties in
           managing some aspects of its FM from FYs 2002 through 2007.
           Specifically, DSS had difficulty estimating the costs of contractor PSI
           requests, recording and tracking obligations, aging accounts receivable,
           reviewing unliquidated obligations, and preparing and executing funding
           documents in compliance with appropriations law and regulations.

           The FM difficulties occurred because DSS had not:

              •   established clearly defined roles and responsibilities for FM,

              •   developed written policies and procedures for FM,

              •   provided training to ensure that DSS personnel performing FM
                  functions were knowledgeable of the law and regulations relating
                  to their duties, or

              •   established a review process to evaluate and monitor controls over
                  FM.

           In addition, DSS, until recently, lacked stability in senior management and
           experienced substantial turnover or vacancies in key FM positions.

           As a result, DSS lacked assurance that it would perform its critical
           mission of processing contractor PSIs. Also, DSS did not record
           obligations totaling $8.44 million made against 20 MIPRs within the time
           frame required; did not properly account for $3.2 million in uncollected
           accounts receivable in the financial statements for FY 2006; and may have
           incurred potential Antideficiency Act violations totaling approximately
           $54,000. Without fundamental changes, some already in progress, to DSS
           FM practices and a more stable management structure, DSS may be
           hampered in its ability to perform its critical mission.


FM Division
    Role. The FM Division of DSS is responsible for budget formulation, budget
    execution, and accounting to ensure compliance with Federal and DoD law and
    regulations. Until May 2007, the FM Division was headed by a Comptroller. In
    May 2007, DSS established and selected a Chief Financial Officer to head FM;
    however, the FM Division continues to include the Comptroller position.

    Structure and Personnel. As of August 2007, the FM Division consisted of the
    following five branches: Budget Formulation, Budget Execution, Accounting,
    Performance Improvement, and Audit Readiness. At that time, out of 24 staff
    positions in the FM Division, 8 were permanent. Of the eight permanent


                                        4
           positions, three were vacant: Comptroller, Budget Execution Branch Chief, and
           Budget Formulation Branch Chief.4 The remaining 16 positions included
           2 augmentees on loan indefinitely from the Defense Finance and Accounting
           Service, 1 augmentee on loan from the Under Secretary of Defense for
           Intelligence for a period not to exceed 6 months, and 13 contractors.

           From September 2003 to November 2006, DSS had eight Comptrollers, five of
           whom occupied the position in an acting or temporary capacity. In
           November 2006, the DSS Director obtained an employee from the Office of the
           Under Secretary of Defense for Intelligence who had budget and FM experience
           to function as the Acting Comptroller; that person has since been selected as the
           DSS Chief Financial Officer.

           In addition to the 24 staff in the FM Division, 6 Resource Advisors participated to
           varying extents in DSS FM activities. Resource Advisors were assigned to each
           of the three DSS components, as well as to DSS Headquarters, the Office of the
           Chief Information Officer, and the Counterintelligence Office.


Management of Financial Functions at DSS
           DSS experienced difficulties in managing aspects of its financial management
           functions. Specifically, DSS had difficulty:

                   •    estimating the cost of contractor PSIs; and

                   •    managing financial activities, including recording and tracking
                        obligations, aging accounts receivable, reviewing unliquidated
                        obligations, and preparing and executing funding documents in
                        compliance with regulations and appropriation law.

           Estimating the Cost of Contractor PSIs
           DSS had difficulty estimating the cost of contractor PSIs for FYs 2003 through
           2006. This occurred largely during a period of vacancies and turnover in senior
           DSS and FM Division positions. DSS did not have a consistent and documented
           method for estimating contractor PSI caseloads. In addition, DSS did not have a
           method for estimating costs based on estimates of the caseloads. As a result, in
           FY 2006, DSS exhausted its budget for contractor PSIs and stopped processing
           new contractor PSIs for 21 days. Without making fundamental changes in
           estimating contractor PSI costs, DSS has no assurance that it will be able to
           perform its critical missions.

           DSS was responsible for managing and paying for PSIs for contractor personnel
           for DoD and 23 other Federal agencies. Contractor PSI costs account for more
           than 60 percent of the DSS annual budget. The actual costs depended on the

4
    The Budget Formulation Branch Chief and Budget Execution Branch Chief positions have been vacant
     since September 2006.


                                                    5
            number of contractor PSI requests and the costs associated with the type of
            investigation requested. For FY 2007, for example, a periodic reinvestigation
            cost $550, while a single-scope background investigation cost $3,550.5

            Estimation of Caseload. DSS estimated annual contractor PSI caseloads
            relatively accurately for FYs 2002 through 2006. Table 1 compares estimated and
            actual caseloads for FY 2002 through FY 2007. As seen in the table, DSS
            achieved an 88- to 99-percent accuracy rate in estimating caseloads for FYs 2002
            through 2006. For FY 2007, however, the preliminary data showed that the
            accuracy rate declined to 69 percent.

                 Table 1. Comparison of Estimated and Actual Contractor PSI Caseloads,
                                        FYs 2002 Through 2007

                                                                               Actual Caseload
                    Fiscal          Estimated             Actual                as a Percent of
                    Year            Caseload             Caseload             Estimated Caseload
                    2002            139,456               138,442                     99%
                    2003            148,998               147,711                     99
                    2004            150,475               132,408                     88
                    2005            145,671               137,944                     95
                    2006            188,068               172,619                     92
                    2007            244,804               168,324*                    69
            *
                Annualized caseload based on 35 weeks of actual data through June 2007.

                   FYs 2002 Through 2007. For FY 2002 through FY 2007, DSS did not
            have a consistent and documented methodology for estimating PSI caseloads.
            DSS used surveys of cleared contractor facilities6 to obtain the expected number
            and type of PSI requests for the current fiscal year and the next 5 fiscal years (for
            example, single-scope background investigation or periodic review). Although
            DSS generally received a 10- to15-percent response rate, DSS officials were
            unable to explain how DSS used the raw survey data to project the PSI caseload.
            Further, for FY 2005 and FY 2006, DSS did not use the survey results to estimate
            caseload; instead, the former Acting Director developed the caseload estimates
            and did not maintain documentation of those estimates or the methodology used.

                   FY 2008. In October 2006, the current DSS Director initiated changes to
            the method for estimating contractor PSI caseloads. In October 2006, the
            Personnel Security Clearance Office7 issued a Web-based survey to all of the
            cleared contractor facilities. DSS asked security officers at those facilities for
            both the number and type of PSIs needed for the current and the next 5 fiscal
            years. Approximately 50 percent of cleared contractor facilities responded to the
5
    Periodic reinvestigations are performed to verify that individuals currently holding a clearance should still
     have access to classified information. Single-scope background investigations are detailed investigations
     required to obtain a top-secret security clearance and include reviews of an individual’s national and local
     records.
6
    Cleared contractor facilities are eligible to receive awards of classified Government contracts.
7
    In October 2006, DSS transferred the responsibility for estimating the contractor PSI caseload from NISP
     to the Personnel Security Clearance Office, specifically the Clearance Liaison Office.


                                                         6
revised survey. According to Personnel Security Clearance Office personnel,
DSS planned to use the results of the Web-based survey to estimate caseloads
starting with FY 2008.

        Personnel Security Clearance Office officials considered the initial
responses to the Web-based survey promising, but planned to identify additional
means to improve the quality of caseload estimates. For example, DSS evaluated
the model used by the Department of the Air Force and other methods to estimate
the caseloads. In addition to improving the quality of the caseload estimates, DSS
officials also wanted to improve the documentation of the methods, assumptions,
and data used to develop the caseload estimates. However, as of August 2007,
DSS had not fully completed the effort. DSS should continue its efforts to
improve the quality and accuracy of caseload estimates and document the method
for future use.

Estimation of Costs. DSS experienced difficulties in accurately estimating
contractor PSI costs for FYs 2003 through 2006. Table 2 compares the DSS
estimated and actual costs for contractor PSIs. The table demonstrates that actual
costs ranged from 87 percent to 256 percent of the estimated costs for FYs 2003
through 2006; however, for FYs 2002 and 2007, the cost estimates were relatively
accurate.

    Table 2. Comparison of Estimated and Actual Contractor PSI Costs,
                        FYs 2002 Through 2007

                    Estimated            Actual               Actual Cost
    Fiscal             Cost                Cost              as a Percent of
    Year            (millions)          (millions)           Estimated Cost
    2002              $ 31.4              $ 30.5                     97%
    2003                56.5               129.9                   230
    2004                57.4               146.9                   256
    2005               117.8               102.2                     87
    2006               177.5               219.9                   135
    2007               186.5               187.6*                  101
*
Annualized cost based on 35 weeks of actual data through June 2007.

       DSS did not use the relatively accurate PSI caseload to estimate PSI costs.
Consequently, for FY 2003, the actual caseload was 99 percent of the estimated
caseload, while the actual cost was 230 percent of the estimated cost. Further, for
FY 2006, actual caseload was 92 percent of the estimated caseload, while actual
cost was 135 percent of the estimated cost.

        However, as of February 2007, Personnel Security Clearance Office
officials stated they were working to ensure that the FY 2008 estimated PSI costs
directly correlated with the estimated PSI caseload by establishing a process to
multiply the caseload estimates by the estimated OPM rates. Table 3 and the
figure accompanying it compare the actual caseload as a percent of the estimated
caseload (from Table 1) with the actual cost as a percent of the estimated cost
(from Table 2).



                                         7
             Table 3. Comparison of Accuracy of Caseload Estimates and
                        Cost Estimates for Contractor PSIs

                                         Actual Caseload                               Actual Cost
                Fiscal                    as a Percent of                             as a Percent of
                Year                    Estimated Caseload                            Estimated Cost
                 2002                            99%                                        230%
                 2004                            88                                         256
                 2005                            95                                          87
                 2006                            92                                         135
                 2007                           69*                                         101
*
    Annualized caseload based on 35 weeks of actual data through June 2007.

         Comparison of Accuracy of Caseload Estimates and Cost Estimates

    300%

    250%

    200%

    150%

    100%

     50%

      0%
               2002              2003               2004                 2005               2006               2007
                                                           Fiscal Year

                  Actual Caseload as a Percent of Estimated Caseload     Actual Cost as a Percent of Estimated Cost



        Method Used in Previous Years To Estimate Costs. DSS did not have
a method for estimating contractor PSI costs based on estimated caseloads. NISP
and FM Division officials were unable to explain how cost estimates were
developed through FY 2006 and were not able to locate any documentation. In
addition, no one in NISP, the Personnel Security Clearance Office, or the FM
Division could identify a written DSS policy or procedure for translating caseload
estimates into cost estimates for budget purposes. The Comptroller attributed the
lack of a written policy to the significant turnover in key DSS positions.

        NISP officials stated that, for FYs 2004 through 2006, they gave caseload
estimates to the DSS FM Division for use in estimating costs. However, we were
unable to determine whether the FM Division calculated the cost estimates for
FYs 2004 through 2006 using the NISP data because of the turnover in the
Comptroller position and the lack of documentation. Officials in the Personnel
Security Clearance Office stated that DSS used the estimated caseloads to
estimate costs for FYs 2002 through 2004. However, those officials further
stated that the former DSS Acting Director did not use the estimated caseloads to
estimate costs for FYs 2005 and 2006.



                                                     8
                   Method Used in FYs 2007 and 2008 To Estimate Costs. To develop the
           FY 2007 cost estimate, the Personnel Security Clearance Office used the
           estimated caseload for each type of investigation from the FY 2005 survey and
           multiplied by the OPM rates for FY 2006 plus 24 percent to account for the OPM
           surcharge.8 DSS Personnel Security Clearance Office officials could not explain
           why the FY 2007 actual caseload was significantly lower than the estimated
           caseload, but the actual cost roughly equaled the estimated cost, demonstrating
           that there still was no correlation between the caseload estimate and the cost
           estimate. In developing the FY 2008 cost estimates, DSS worked to improve the
           direct correlation between the estimated caseload and estimated cost by
           establishing a process to multiply the caseload estimates by the estimated OPM
           rates. It is important for DSS to use accurate caseload estimates for estimating
           costs because contractor PSIs account for at least 60 percent of the DSS operation
           and maintenance budget. To improve reliability of the PSI estimates for DSS
           budgeting purposes, DSS should continue to develop and document a method for
           estimating costs ensuring a direct correlation between caseload and cost
           estimates.

           Ability To Perform Contractor PSIs. In April 2006, DSS exhausted its budget
           for contractor PSIs, and the former Acting Director stopped processing new
           contractor PSIs for 21 days.9 Without a good methodology to accurately estimate
           PSI costs, DSS has no assurance that it will be able to perform its critical mission
           of processing contractor PSIs for the Federal Government. The former Acting
           Director stated that, because actual costs exceeded estimated costs, she stopped
           processing new contractor PSIs to avoid exceeding the funds appropriated to
           DSS; exceeding the funding could result in a violation of the Antideficiency Act.
           The former Acting Director, the former Comptroller, and Personnel Security
           Clearance Office officials attributed the higher-than-estimated costs to the
           surcharge, increased OPM rates, or an unexpected increase in the more expensive
           types of PSIs. In addition, the former Acting Director stated that DSS lacked
           sufficient appropriated funds to cover the higher costs because DSS submitted its
           FY 2006 budget request to Congress before the transfer of the PSI function to
           OPM.

           The former Acting Director believed that DSS needed an additional $188 million
           to cover the cost of contractor PSIs for the remainder of the FY 2006. However,
           after the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
           Officer requested that Congress reprogram an additional $91 million for DSS,
           DSS resumed processing PSIs. DSS received an additional $80 million as a result
           of the Under Secretary of Defense (Comptroller)/Chief Financial Officer request.
           The $80 million allowed DSS to process contractor PSIs for the rest of FY 2006.

           Need for More Accurate Cost Estimates. Before the February 2005 transfer of
           PSIs to OPM, DSS could accommodate fluctuations in actual costs by adjusting
           the PSI budget. However, following the transfer, DSS could not make such

8
    As part of the transfer of the PSI function to OPM, OPM could charge DSS up to a 25-percent surcharge
    in addition to the established OPM fees for each type of PSI requested. During FY 2006, OPM charged a
    19-percent surcharge until July 1, 2006, and then lowered the surcharge to 14 percent.
9
    DSS forwarded contractor PSI requests to OPM.


                                                     9
            adjustments. Thus, the accuracy of cost estimates became more critical, and
            inaccuracies affected the ability of DSS to perform its critical missions.

                     Before OPM Transfer. Before the transfer of PSIs to OPM, DSS
            managed the costs for PSIs using the DSS Working Capital Fund. Working
            capital funds come from the sale of supplies and services and are used to pay the
            costs of providing the supplies or services; fund managers strive to break even
            over the long term, and they set prices accordingly. The DSS Working Capital
            Fund was part of the Defense Working Capital Fund. The DSS Working Capital
            Fund received income from the Military Departments and DoD agencies for PSIs.
            DSS used the DSS Working Capital Fund to pay for PSIs of DoD military,
            civilians, and Federal Government contractor personnel. Although working
            capital funds are designed to break even, when DSS over- or underestimated
            costs, it made adjustments to the fund in two ways.

                         •   DSS could decrease or increase overall PSI prices. For example,
                             NISP increased FY 2004 prices by a total of $11 million after the
                             actual costs exceeded the estimated costs by $73 million in
                             FY 2003.10

                         •   The Under Secretary of Defense (Comptroller)/Chief Financial
                             Officer could transfer funds from the Defense Working Capital
                             Fund to the DSS Working Capital Fund. For example, when the
                             DSS Working Capital Fund closed in September 2006, it had a
                             deficit of approximately $142 million, and the Under Secretary of
                             Defense (Comptroller)/Chief Financial Officer transferred
                             $142 million from the Defense Working Capital Fund to cover the
                             deficit and zero out the DSS Working Capital Fund.11

                    After OPM Transfer. After the February 2005 transfer of the PSI
            function to OPM, DSS no longer used the DSS Working Capital Fund; however,
            DSS remained responsible for funding contractor PSIs, whether the PSIs were
            originated by contractors of DoD or contractors of the other 23 Federal agencies.
            Without the Working Capital Fund, DSS had to fund the costs with appropriated
            funds and no longer had the flexibility to handle funding shortfalls. Thus,
            estimation of costs became critical to DSS budgeting to ensure DSS received
            sufficient appropriations to cover contractor PSI costs. Unless DSS can
            accurately estimate the number and types of contractor PSIs, DSS has no
            assurance that it will be able to fund or perform that mission-critical function.

                    Congressional Interest in PSI Cost. It is critical that DSS accurately
            estimate the cost of PSIs for contractors because of added congressional interest.
            Public Law 109-364, “John Warner National Defense Authorization Act for
            Fiscal Year 2007,” October 17, 2006, directed the Comptroller General to report
            to Congress on at least the unit cost of a PSI to DoD, the procedures used by DoD
            to estimate the annual number of PSIs, and any plan developed by DoD to ensure
10
     The adjustments to the FY 2004 rates were across DoD for all military, DoD civilian, and contractor
     PSIs—not just contractor PSIs.
11
     The DSS Working Capital Fund was no longer used for funding contractor PSIs as of September 2005;
     however, the fund remained open until September 2006 to accommodate open bills.


                                                      10
            adequate funding for PSIs.12 With the additional congressional interest, it is
            important that DSS continue to develop and document a method for estimating
            costs and ensure a direct correlation between the caseload and cost estimates.

            Managing Financial Activities
            Management of some DSS financial activities needed improvement. Specifically,
            for FYs 2002 through 2006, DSS did not regularly ensure (1) timely obligation of
            funds, (2) timely aging of accounts receivable, (3) timely reviews of unliquidated
            obligations, or (4) proper preparation and execution of Military Interdepartmental
            Purchase Requests (MIPRs) that affected financial obligations.

            Contracting Authority. According to DoD Directive 5105.42, “Defense
            Security Service,” May 13, 1999, DSS can act as its own contracting authority,
            meaning that DSS may award and administer contracts. However, as of
            August 2007, DSS did not have a warranted contracting officer on staff, and
            therefore had to place orders for supplies and services through other DoD and
            non-DoD agencies. As of August 2007, the DSS Director was working to obtain
            a warranted contracting officer.

            DSS used DD Form 448, “Military Interdepartmental Purchase Request,” as the
            primary means of obligating funding when acquiring supplies or services through
            other agencies. To determine the adequacy of the process used to prepare,
            review, obligate, track, and monitor MIPRs, we reviewed a sample of 65 MIPRs
            (valued at $25 million), dated between September 2002 and February 2006,13,14
            from a universe of 999 MIPRs (valued at $399 million) that were active during
            FYs 2005 and 2006. We also examined the accounting transactions related to
            each MIPR to corroborate and supplement the information contained in each
            MIPR file.

            Timely Recording of Obligations. According to DoD Regulation 7000.14-R,
            “DoD Financial Management Regulation” (FMR), volume 3, chapter 8,
            section 080301A, “Ten-Day Rule,” June 2005:
                    [O]bligations shall be recorded in the official accounting records at the
                    time a legal obligation is incurred . . . . In no instance shall obligations
                    be recorded any later than 10 calendar days following the day the
                    obligation is incurred. . . . [O]bligations of $100,000 and more—per
                     . . . accounting line . . . shall be recorded and included in the official
                    accounting records in the same month in which the obligation is
                    incurred.


12
      On May 29, 2007, the Comptroller General announced an engagement to address the congressional
     concerns outlined in Public Law 109-364.
13
     We judgmentally selected 65 MIPRs for review, including MIPRs of large and small values and MIPRs
     prepared for each of the DSS components. We chose MIPRs against which transactions were recorded in
     the DSS accounting system as of September 2006.
14
     The current DSS Director has been in place since March 2007 (was acting since June 2006), and the
     current Acting Comptroller has been in place since November 2006.


                                                        11
            Further, according to Defense Federal Acquisition Regulation Supplement
            PGI 208.7004-2, “Acceptance by Acquiring Department,” September 2001, the
            activity cannot record an obligation until it receives acceptance of the MIPR,
            through an acceptance document or a copy of the contract.

            Of the 65 MIPRs reviewed, 20 had obligations totaling $8.44 million that DSS did
            not record within the time frame required by the FMR. The average age of
            obligations was approximately 73 days, versus the required 10 days, and the
            longest took 281 days. For example, in April 2005, a $2.7 million obligation for
            information technology services was not recorded for 69 days, and in
            December 2004, DSS did not record a $0.7 million obligation for information
            technology services for 281 days.

            Within the DSS Budget Execution Branch, either the Funds Certifier or the FM
            Analysts were responsible for recording obligations against the MIPR in the
            accounting system. The 20 obligations were not recorded in the required time
            frame because the Funds Certifier, a permanent DSS employee, was not aware of
            the requirement and therefore did not track obligations for timeliness.
            Furthermore, the FM Division did not have a standard operating procedure for the
            timely recording of obligations. The Funds Certifier explained that she was not
            aware of the 10-day rule partially because the on-the-job training she received
            from a contractor employee did not include the 10-day rule. Because the Funds
            Certifier was not aware of the 10-day rule, she did not ensure that DSS obtained a
            copy of the MIPR acceptance or a copy of the contract from the servicing agency
            in a timely manner. Without the documented acceptance of the MIPR or a copy
            of the contract, DSS cannot record the obligation. In addition, as of August 2007,
            the FM Division had no documented policy requiring compliance with the 10-day
            rule.

            When DSS did not timely record the obligations totaling $8.44 million, the DSS
            accounting records incorrectly showed those funds as available for use. This
            oversight increased the risk that DSS could violate the Antideficiency Act by
            obligating more funds than were available in its appropriation. Therefore, it is
            important that DSS expedite issuing policy to address timely recording and
            tracking of obligations. In addition, it would be beneficial to provide training to
            those obligating funds to ensure that obligations are recorded in accordance with
            the 10-day rule. DSS should perform periodic monitoring to ensure that the FM
            Division completes aging of accounts receivable before the end of each fiscal
            year.

            Timely Aging of Accounts Receivable. The FMR, volume 4, chapter 3,
            “Receivables,” July 2006 ,15 requires that delinquent (unpaid after the due date)
            receivables are to be aged starting 1 day after the payment due date, that
            expenditures incurred for completed performance are to be promptly recorded as
            billed receivables, and that the performing entity should ensure the billed
            receivables are promptly charged and collected. The purpose of the FMR
            requirement is to promptly record monies due an organization; to collect overdue


15
     This chapter was updated in July 2006, but the requirement did not change from the December 2001
     version; therefore, the requirement applied throughout FY 2006.


                                                     12
            funds; and to make those funds available for other purposes by the receiving
            organization, in this case DSS.

            According to DSS FM Accounting Branch personnel, they were responsible for
            monitoring accounts receivable for items such as tuition costs for the Security
            Education, Training, and Awareness Program and for providing classified internal
            services within DoD. For the entire FY 2006, the Accounting Branch did not
            timely record accounts receivable and did not conduct any aging of accounts
            receivable. As a result, DSS reported in its FY 2006 annual financial statements a
            total of $3.2 million in uncollected accounts receivable.

            Of the uncollected amounts totaling $3.2 million, the Accounting Branch took
            102 days to record in the DSS accounting system an account receivable for
            $0.2 million. Another account receivable for $0.2 million took the Accounting
            Branch 121 days to record, and as of April 2007, DSS had not collected the funds.
            According to FM Division personnel, the recording, aging, and collecting of
            accounts receivable did not occur because it was unclear who was responsible.
            According to FM Division personnel, both staff members assigned to the
            Accounting Branch were temporary augmentees from the Defense Finance and
            Accounting Service who were tasked to perform specific assignments, and aging
            accounts receivable was not among their assigned tasks. Furthermore, the FM
            Division did not have a documented procedure for performing this function.

            In April 2007, FM personnel identified a need for written policy and procedures
            on aging accounts receivable; however, as of August 2007, they had not been
            drafted. As of November 2006, Accounting Branch personnel had initiated
            monthly aging of accounts receivable within the Accounting Branch to ensure
            accounts receivable were both billed and collected timely in FY 2007. It is
            commendable that DSS has recognized the need for formal policy on timely aging
            of accounts receivable. To better formalize the process, DSS should issue policy
            on aging accounts receivable, delegate the responsibility in writing, and perform
            quality assurance in the form of periodic monitoring to ensure that the FM
            Division completes aging of accounts receivable before the end of each fiscal
            year.

            Timely Reviews of Unliquidated Obligations. The FMR, volume 3, chapter 8,
            section 0804, “Triannual Reviews of Commitments and Obligations,” June 2005,
            requires DoD agencies to perform reviews of unliquidated obligations16 and
            commitments three times each year. The FMR also requires fund holders, with
            assistance from supporting accounting offices, to review commitment and
            obligation transactions “for timeliness, accuracy, and completeness during each of
            the 4-month periods ending on January 31, May 31, and September 30 of each
            fiscal year.” The FMR, volume 3, chapter 8, section 080403, “Responsibilities of
            Fund Holders,” June 2005, requires triannual reviews be completed “no later than
            14 days following the end of January and of May, as well as by September 30 of
            each fiscal year.” Furthermore, the FMR states that triannual reviews should be
            conducted on direct appropriations, reimbursable transactions, and revolving and
            trust funds. The purpose of the triannual reviews is to ensure unliquidated

16
     Unliquidated obligations are the funds associated with an obligation that have not been spent or are still
     outstanding.


                                                        13
            obligations are recorded and are in the proper stage of accounting—committed,
            obligated, or expensed—and to determine whether the amounts are valid and
            correct.

            From September 200517 through May 2007, DSS FM Division either did not
            complete or did not timely complete triannual reviews of outstanding obligations.
            From September 2005 through May 2007, DSS was required to complete
            six triannual reviews, but completed only three reviews, of which only two were
            done within the required time frame of 14 days. Table 4 identifies the review
            periods, review due dates, and actual dates associated with the past six triannual
            reviews.

                               Table 4. DSS Completion of Triannual Reviews

                                                                               Actual Date of Review
            Review Period End                  Review Due Date                     (Days Late)

            September 30, 2005                September 30, 2005               Not Completed
            January 31, 2006                  February 14, 2006                March 17, 2006 (31 days)
            May 31, 2006                      June 14, 2006                    Not Completed
            September 30, 2006                September 30, 2006               August 31, 2006 (0 days)
            January 31, 2007                  February 14, 2007                Not Completed
            May 31, 2007                      June 14, 2007                    May 24, 2007 (0 days)

            In September 2005, the FM Division assigned responsibility for performing the
            triannual reviews to the Resource Advisors and the Budget Execution Branch.
            However, FM Division personnel were unable to explain why past reviews were
            not completed. In addition, at least one of the Resource Advisors stated that he
            had other duties that took precedence over completing the triannual reviews. The
            Acting Director was successful in publishing the Triannual Review policy in
            January 2007. However, according to Accounting Branch personnel, DSS did not
            complete the January 2007 triannual review because a majority of the Resource
            Advisors did not provide their results in a timely fashion to the FM Division. The
            Resource Advisors and the FM Analysts successfully used the Triannual Review
            policy to complete the May 2007 triannual review on time. In the past, according
            to Accounting Branch personnel, no one within the FM Division monitored the
            completion of triannual reviews because of the turnover in the Comptroller
            position and vacant Budget Execution Chief position.

            By not completing the triannual reviews, DSS did not identify funds that could be
            deobligated and used for other purposes. For example, when DSS completed the
            January 31, 2006, and September 30, 2006, reviews, approximately $211,000 and
            $275,000, respectively, were deobligated, making those funds available for other
            uses before the funds expired. It is commendable that DSS initiated formalizing

17
     The requirement to complete the triannual review was initiated by the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer in June 2005, with the first full triannual review due at the end of
     FY 2005.


                                                        14
policy on conducting triannual reviews. As DSS continues to implement the
January 2007 triannual review policy, the Resource Advisors and FM Analysts
will be able to complete triannual reviews in a timely manner. DSS should
continue to perform quality assurance in the form of periodic monitoring to
ensure that the triannual reviews are completed on time.

Proper Preparation and Execution of MIPRs. From FYs 2002 through 2006,
the FM Division did not consistently prepare and approve MIPRs in compliance
with the law and regulations that govern the use of Federal appropriations.
Specifically, DSS did not comply with the bona fide needs rule and potentially
violated the Antideficiency Act. Also, many of the MIPRs that we reviewed had
unclear descriptions of the supplies and services required and unclear periods of
performance.

        MIPR Process. Once a DSS component identified the need for a supply
or service, the component’s Resource Advisor prepared and submitted a MIPR to
the FM Budget Execution Branch. Within the Budget Execution Branch, an FM
Analyst (a contractor employee) reviewed each MIPR for completeness and
accuracy and determined whether sufficient funds were available to procure the
supply or service. Then the Funds Certifier (a Government employee) reviewed
the MIPR and certified that funds were available. After certification, the MIPR
was returned to the Resource Advisor, who then forwarded the MIPR to the
Federal agency that would contract for the supplies or services. The requesting
component’s Resource Advisor, or another designated person within that
component, was responsible for monitoring the MIPR to ensure that the
component received the requested supplies or services.

        Compliance With Appropriation Law and regulations. Of the
65 MIPRs reviewed, 2 may not have complied with the Antideficiency Act. The
potential violations occurred when DSS did not meet the bona fide needs rule.
The Antideficiency Act is codified in several sections of United States Code, such
as in section 1341(a), title 31 [31 U.S.C. 1341(a)], and is one of the major laws
through which Congress exercises its constitutional control of the public purse.
Violations of other laws may create violations of the Antideficiency Act
provisions, including the bona fide needs rule. The bona fide needs rule, codified
in 31 U.S.C. 1502(a), states that appropriations are available for designated
periods of time and, when using those funds, an organization must have a bona
fide need for the requirement in the year(s) that the appropriations are available
for obligation. However, if an agency purchases the supplies or services in the
year the appropriations are allowed but schedules delivery of those supplies or
services for a fiscal year beginning after the appropriation has expired, the agency
may not be complying with the bona fide needs rule, potentially leading to a
violation of the Antideficiency Act. The FMR, volume 2A, chapter 1, “General
Information,” June 2004, states that operation and maintenance appropriations are
available for obligation for 1 year.

       The two instances discovered in reviewing the 65 MIPRs are as follows.

               •   The Headquarters Resource Advisor issued
                   MIPR NMIPR05970390, dated September 27, 2005, to the
                   Army Contracting Agency for $15,948 in FY 2005 operation


                                     15
                   and maintenance funds for “providing a training class that
                   would be scheduled at a later date.” On September 28, 2005,
                   the Army Contracting Agency awarded a contract to Northrop
                   Grumman for $15,948 to provide the training in December
                   2005. This action did not comply with the bona fide needs rule
                   for two reasons. First, DSS had not clearly defined the
                   requirement and had no reasonable expectation of receiving the
                   training in FY 2005. Second, the operation and maintenance
                   appropriations used to fund the contract expired on
                   September 30, 2005, while the training (the service being
                   received) was not scheduled to take place until December
                   2005.

               •   The Chief Information Officer’s Resource Advisor issued
                   MIPR NMIPR05970371 on August 26, 2005, to the Defense
                   Information Technology Contracting Organization for $38,167
                   of FY 2005 operation and maintenance funds for hardware
                   maintenance from August 1, 2005, through March 31, 2007.
                   The Defense Information Technology Contracting
                   Organization took the following contract actions to fulfill the
                   requirements:

                        — issued Contract DCA200-02-A-5011 on September 30,
                           2005, for $16,051 for hardware maintenance to be
                           provided from October 1, 2005, through September 30,
                           2006; and
                        — issued Contract Modification DCA200-02-A-5011/0053
                           on September 30, 2006, for $12,652 for hardware
                           maintenance to be provided from October 1, 2006,
                           through September 30, 2007.
                   These actions did not comply with the bona fide needs rule
                   because both the contract and the contract modification were
                   awarded using operation and maintenance appropriations from
                   the current year for work to be performed in the following
                   years. Specifically, DSS used funds that were not available
                   after September 30, 2005, to fund activities for FY 2006 and
                   FY 2007.
        Neither the Resource Advisors nor the FM Analysts were aware that these
contracting actions violated the bona fide needs rule. Specifically, the Chief
Information Officer’s Resource Advisor stated that he believed he had properly
used FY 2005 operation and maintenance funds. According to the FM Analyst,
senior management directed that the MIPR be processed with the FY 2005
operation and maintenance funds if the servicing activity would accept the MIPR.
The improper application of the bona fide needs rule could constitute a violation
of the Antideficiency Act. According to FMR, volume 14, chapter 3,
“Preliminary Reviews of Potential Violations,” April 2003, it is the responsibility
of the agency to investigate potential Antideficiency Act violations once it learns
of them.



                                    16
        Clarity of Descriptions of Supplies and Services. The FMR,
volume 11A, chapter 3, “Economy Act Orders,” April 2000, requires that MIPRs
specifically, definitely, and certainly describe the supplies and services requested.
MIPR descriptions should be specific enough to ensure that the appropriate funds
are being used, that any amendments are within the scope of the work to be
performed, and that confirmation can be made that the supplies and services were
received and were adequate. However, for 17 of the 65 MIPRs reviewed, valued
at $12.4 million, Resource Advisors did not provide sufficient details describing
the supplies or services requested. In one case, the Headquarters Resource
Advisor forwarded a $0.3 million MIPR to the Budget Execution Branch with a
description of “FM, HR [Human Resources], CO [Chief of Operations], SC
[security coordination], SS [Support Services] support funding.” In another case,
the Chief Information Officer’s Resource Advisor prepared a $4.75 million MIPR
that described the services required simply as “JPAS [Joint Personnel
Adjudication System] Support.”

        In general, the Resource Advisors did not provide additional supporting
documentation to the Budget Execution Branch to clarify MIPR requirements.
Budget Execution Branch personnel, including the FM Analyst (contractor) and
the Funds Certifier (government employee) approved the MIPRs. The Resource
Advisors did not provide additional details in the MIPR descriptions because they
stated they had received no guidance or training to indicate that the descriptions
were insufficient. In turn, Budget Execution Branch personnel did not return the
MIPRs for having incomplete information. During interviews, a Budget
Execution Branch staff member stated that he did not question the MIPRs or
return them to the Resource Advisors for clarification because no one instructed
him to flag or return MIPRs with unclear or vague descriptions. Because the
descriptions on the MIPRs could encompass a wide variety of supplies and
services, it is difficult to determine whether DSS used the correct appropriated
funds or whether DSS received the correct supplies or services. Thus,
clarification of what constitutes proper preparation of a MIPR and training in
MIPR preparation could prevent this in the future. In February 2007, the DSS
Acting Comptroller identified the need for policies and procedures on the
preparation and processing of MIPRs.
        Clarity of Statements of Period of Performance. Defense Federal
Acquisition Regulation Supplement PGI 253_208, “Required Sources of Supplies
and Services,” September 2001, requires that the requesting agency clearly state
the period of performance on each MIPR. However, DSS did not define the
period of performance for 11 of the 65 MIPRs reviewed, totaling approximately
$8.4 million. For example, FM personnel issued a MIPR dated September 2003
and valued at $0.3 million to the U.S. Army Personnel Command for the
“temporary use of Army Reserve soldiers.” However, the MIPR did not specify
any period of performance. In another case, the DSS, Chief Information Officer’s
personnel prepared a MIPR dated April 2005 for approximately $1 million and
then issued an amendment to the MIPR, dated September 2005, for approximately
$0.4 million, indicating a period of performance on the amendment that
overlapped with the period of performance on the MIPR. During interviews, the
Resource Advisors said that they considered the periods of performance to be
acceptable because the Budget Execution Branch never returned the MIPRs for
being incomplete or unclear. Further, the Resource Advisors stated that they had


                                     17
            not received any guidance or training on the level of detail required on a MIPR
            until October 2006.18 Further, the FM Analysts stated that they did not question
            the unclear periods of performance on the MIPRs because they did not have a
            clear understanding of what constitutes a comprehensive period of performance.

                    By not clearly defining the period of performance, DSS did not comply
            with the Defense Federal Acquisition Regulation Supplement and created
            difficulty for the supplying agency to ensure it met the requirements of the MIPR.
            In addition, DSS could have violated the Antidefiency Act if the period of
            performance was not consistent with the period allowed for the type of funds
            used.

                    DSS should initiate reviews to determine whether the improper use of
            Government funds related to MIPRs NMIPR05970390 and NMIPR05970371
            resulted in violations of the Antideficiency Act or of other regulations governing
            the use of appropriated funds. In addition, DSS needs to develop and implement
            policies and procedures that specifically define an acceptable description of
            supplies and services and a clear period of performance. Furthermore, the DSS
            Director needs to train the Resource Advisors, the FM Analysts, and the Funds
            Certifier on the proper preparation and review of MIPRs, as well as on the proper
            use of appropriated funds. Finally, DSS should also perform quality assurance in
            the form of periodic monitoring to ensure MIPRs are prepared and executed
            properly.


DSS System of Controls for FM
            DSS recognized the need to better define roles and responsibilities, establish
            written policies and procedures, and provide training. In 2005 the organization
            developed a review process to evaluate corporate internal controls over financial
            reporting. However, the process was not fully implemented because of a lack of
            continuity in senior management and vacancies in key FM Division positions.
            For the same reasons, a process to ensure compliance with internal controls and
            implementation of corrective actions identified during the reviews was not fully
            implemented.

            Guidance on Management Controls. Management controls provide a valuable
            tool to organizations to ensure that processes are working as intended and in
            compliance with law and regulations. According to Office of Management and
            Budget Circular No. A-123, “Management Accountability and Control,” June 21,
            1995, management controls are:
                    . . . the organization, policies, and procedures used to reasonably
                    ensure that (i) programs achieve their intended results; (ii) resources
                    are used consistent with agency mission; (iii) programs and resources
                    are protected from waste, fraud, and mismanagement; (iv) laws and

18
      In October 2006, the lead FM Analyst sent an e-mail on behalf of the former Comptroller to Budget
     Execution Branch personnel and the Resource Advisors providing guidance on what the FM Division
     considered a clear period of performance.


                                                      18
                    regulations are followed; and (v) reliable and timely information is
                    obtained, maintained, reported and used for decision making.

            DSS Assessments of FM Internal Controls. Office of Management and Budget
            Circular A-123 requires Federal agencies to develop, implement, and document
            effective internal controls and annually assess and report on the effectiveness of
            internal controls. In FY 2005, in accordance with Office of Management and
            Budget Circular A-123, DSS defined a process and methodology to assess,
            document, and report on the effectiveness of the internal controls over FM
            functions. In FY 2006, DSS began formal assessments of FM internal controls.
            The DSS assessments identified internal control weaknesses in processing and
            recording cash receipts and disbursements, recording accounts receivable and
            accounts payable, and anticipating payments of Federal employee compensation
            taxes. To address these weaknesses, DSS developed and approved corrective
            actions. The corrective actions included documenting and implementing policies
            and procedures, training FM Division and other DSS personnel, implementing
            electronic document storage, and communicating roles and responsibilities to
            DSS staff. In addition to the corrective actions developed by DSS, in
            December 2006, shortly after starting, the Acting Comptroller established a
            Resource Management Process to serve as a foundation for all future policies,
            training, and restructuring regarding the FM processes at DSS. Specifically the
            Resource Management Process defined overall FM responsibilities throughout
            DSS, defined the knowledge that Resource Advisors should possess, and
            established two corporate boards to make overall financial decisions.
            Furthermore, in its FY 2007 Annual Statement required under the Federal
            Managers’ Financial Integrity Act of 1982,19 dated August 20, 2007, DSS
            identified and reported internal control weaknesses and corrective actions
            associated with processing and recording accounts payable and accounts
            receivable.

            In spite of identifying internal control weaknesses and planning corrective
            actions, DSS was slowed in the implementation of the corrective actions by a lack
            of continuity in senior management and vacancies in key FM Division positions
            (since September 2006). In addition, DSS did not have a quality assurance
            process to monitor implementation of corrective actions.

                    Continuity in DSS Management. DSS has been unable to fully
            implement all the corrective actions, particularly since the transfer of the PSI
            function to OPM, because of the lack of continuity in senior management since
            2002. With five Directors (three acting) within the last 5 years, at least
            nine Comptrollers (six acting) during the same period, including five
            Comptrollers during the transfer of the PSI function to OPM, DSS management
            functioned largely in a reactive mode. In addition, when DSS stopped processing
            contractor PSIs in April 2006, the former Acting Director stated she was also
            functioning as the Chief Information Officer and the Chief Operating Officer.
            The current Director stated that she spent the first 6 months of her tenure putting
            out fires. Further, the last two Comptrollers, one of whom was acting, stated that
            they spent much of their time solving near-term financial problems. The most

19
      The Annual Statement required under the Federal Managers’ Financial Integrity Act of 1982 is the
     reporting requirement outlined in Office of Management and Budget Circular A-123.


                                                      19
    recent Acting Comptroller also stated that being a part-time comptroller obviously
    limited his ability to oversee FM functions. In May 2007, the DSS Director
    selected the Acting Comptroller as the Chief Financial Officer and announced
    plans to retain the Comptroller position, but as of August 2007 still needed to hire
    a Comptroller.

             Continuity in Other Key Positions. In addition to turnover in the
    Director and Comptroller positions, the vacancies in key positions within the FM
    Division limited the DSS Comptrollers’ (permanent and acting) ability to
    implement corrective actions. The vacant positions within the FM Division
    included those of the Budget Execution and Budget Formulation Branch Chiefs,
    which have both been vacant since September 2006. The vacancies in those
    two key FM positions further reduced the time the various Comptrollers could
    spend on ensuring implementation of corrective actions because the Comptrollers
    had to oversee the day-to-day operations of both the Budget Formulation and
    Budget Execution branches in addition to their own work. To better provide
    oversight of both Government and contractor personnel, DSS should expedite
    filling both the Budget Execution and Budget Formulation Branch Chief
    positions.

            Process for Monitoring Implementation of Corrective Action Plans.
    Finally, DSS was slowed in implementing corrective action plans because it does
    not have a process in place to ensure regular monitoring of corrective action
    plans. For example, in developing the corrective action plan, DSS identified
    approximately 19 policies and procedures that needed to be developed; however,
    as of August 2007, only 5 of those policies and procedures had been issued. The
    remaining 14 policies and procedures were either in draft or had not yet been
    started. Among the policies and procedures being developed was the DSS
    Resource Management Handbook, which will provide DSS personnel with a
    comprehensive guide on the DoD and DSS budget development and execution
    processes. See Appendix D for a listing of the 19 policies and procedures and the
    stage of development. According to the Acting Comptroller and Accounting
    Branch personnel, the policies and procedures are in various stages of
    development because of lack of personnel to both develop and monitor the
    development of the policies. DSS can benefit from a dedicated staff to
    periodically monitor and assess the implementation of the policies, procedures,
    and corrective action plans.


Implementation of Corrective Actions
    DSS management understands the value of effective internal controls and is using
    the financial reporting reviews required by the Office of Management and Budget
    Circular A-123 to identify corrective actions needed. DSS has taken proactive
    steps, including establishing a process to review internal controls for FM
    functions, identifying needed policies and procedures, defining roles and
    responsibilities, and identifying other needed corrective actions. In addition, DSS
    management has filled many key leadership positions. However, DSS still needs
    to ensure the corrective actions are successfully implemented. Implementation of
    corrective actions should facilitate preparation of sound budget estimates and


                                        20
           requests and, therefore, help ensure that DSS has the resources to perform its
           critical missions.

           The Under Secretary of Defense for Intelligence has oversight responsibilities for
           DSS and was involved in the transfer of the PSI function from DSS to OPM. To
           preclude future budgetary and financial management problems, the Under
           Secretary of Defense for Intelligence should actively assist and provide oversight
           of DSS to ensure that DSS continues to pay for PSIs, not only for DoD, but also
           for 23 other Federal agencies.


Organizational Review of DSS
           In July 2006, the DSS Director requested the Air Force’s 4th Manpower
           Requirements Squadron to conduct an organizational review of DSS - in
           particular, to evaluate the proper functional alignment and necessary staffing
           levels of five DSS offices.20 The Air Force report, dated March 2007, included
           the FM Division and included issues similar to those found during this audit. The
           Air Force report stated the following.

                    •   The FM Division did not have standard operating procedures in the
                        Budget Execution Branch.

                    •   FM Division employees were concerned about not having the
                        necessary skills to deliver quality products in a timely manner.

                    •   FM Division employees expressed the need for training to better equip
                        themselves to accomplish their FM functions.

                    •   The FM Division was not adequately staffed to establish and maintain
                        a quality assurance program or to conduct cost analysis functions.

                    •   The majority of tasks in the Budget Formulation and Budget
                        Execution Branches were performed by contractors, who could not
                        obligate Government funds. This limitation created bottlenecks as
                        documents requiring approval were routed through a single point of
                        contact for approval. As such, job requirements were not being
                        performed. Not performing required tasks put DSS at risk of violating
                        DoD and Federal regulations or improperly appropriating funds.

           The recommendations in the Air Force report included that DSS add, in total,
           seven positions to the FM Division, fill the vacant Branch Chief positions, and
           establish and institutionalize policies and procedures throughout the organization.
           The Air Force report also stated that policies and procedures could reduce work
           effort and improve credibility, data comparability, and legal defensibility.
           Finally, the report stated that the FM Division should develop a training program


20
     The five DSS offices were the Clearance Liaison Office, Financial Management Office, Human
     Resources Office, Office of Chief Information Officer, and Support Services Office.


                                                    21
on management controls, accounting, auditing, and governmental budgeting and
that the Comptroller should add a Training Manager to the FM Division staff.




                                  22
Recommendations
    1. We recommend that the Director, Defense Security Service:

            a. Develop and document a reliable methodology for estimating the
    number of contractors needing personnel security investigations and the cost of
    those investigations.

            b. Initiate preliminary reviews, in accordance with DoD
    Regulation 7000.14-R, “Financial Management Regulation,” to determine
    whether the improper use of Government funds for Military Interagency Purchase
    Requests NMIPR05970390 and NMIPR05970371 resulted in Antideficiency Act
    violations or other funding violations.

            c. Develop and implement written policies and procedures for efficient
    and effective financial management. The written policies and procedures should,
    at a minimum:

                   (1) Delegate the responsibility for recording obligations to at least
    one person and a backup, define the process for timely recording obligations, and
    establish periodic monitoring of obligations to ensure the Financial Management
    Regulation requirement for recording obligations is met.

                   (2) Delegate the responsibility for aging accounts receivable to at
    least one person and a backup, define the process for aging accounts receivable,
    and establish periodic monitoring of accounts receivable to ensure they are aged
    timely.

                   (3) Define what constitutes an acceptable description of supplies
    and services and a clear period of performance for Military Interagency Purchase
    Requests, and define the process for rectifying errors on Military Interagency
    Purchase Requests.

                 (4) Define the appropriate use of current and expired funds to
    comply with Federal appropriations law and regulations.

            d. Establish training requirements for Defense Security Service staff
    involved in the preparation and review of Military Interagency Purchase Requests
    so that the requests contain complete and accurate descriptions of supplies and
    services and well-defined periods of performance. The training should cover the
    proper use of appropriated funds, emphasizing the laws governing the bona fide
    needs rule and the Antideficiency Act.

           e. Establish a dedicated responsibility for performing quality assurance
    reviews that evaluate implementation and success of corrective actions by the
    Defense Security Service to improve financial management functions.

           f. Fill the Comptroller, Budget Formulation Branch Chief, and Budget
    Execution Branch Chief positions.



                                         23
    2. We recommend that the Under Secretary of Defense for Intelligence assist
    with and exercise oversight of the Defense Security Service financial
    management function, including budget formulation and budget execution.


Management Comments Required
    The Office of the Under Secretary of Defense for Intelligence and the Director,
    Defense Security Service did not comment on a draft of this report. We request
    that both provide comments on the final report by February 4, 2008.




                                       24
Appendix A. Scope and Methodology
   We conducted this performance audit from July 2006 through October 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We performed this audit to evaluate whether DSS had effective management
   controls over its FM function. Specifically, we evaluated the DSS controls over
   the development of the estimates for contractor PSI requirements and the
   agency’s annual budget, the identification of mission-essential requirements, and
   the execution of appropriated funds. We also evaluated management controls
   over the preparation, approval, and completeness of documents used to commit
   and obligate appropriated funds. We performed this audit at DSS headquarters
   and at two DSS field offices: the Security Education, Training, and Awareness
   Program in Linthicum, Maryland, and the Defense Industrial Security Clearance
   Office in Columbus, Ohio. We reviewed documents related to budget
   formulation, contracting, and budget execution, as well as Federal and DoD
   policies, procedures, guidance, and statutory requirements related to budget
   development, budget execution, and fiscal law. In addition, we reviewed DSS
   staff’s position descriptions, the United States Air Force 4th Manpower
   Requirements Squadron’s “Organizational Review of DSS,” and other
   documentation related to staffing. Further, we interviewed current and former
   DSS employees, including agency Directors, Comptrollers, FM personnel,
   Resource Advisors, augmentees, and contractors. We also interviewed personnel
   from the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
   Officer, the Office of the Under Secretary of Defense for Intelligence, the Office
   of the Deputy Chief of Staff of the Army for Intelligence, the Naval Criminal
   Investigative Service, and the Air Force Consolidated Adjudication Facility.

   To determine the adequacy of the process that DSS used to prepare, review,
   obligate, track, and monitor MIPRs, we selected a judgmental sample of
   65 MIPRs out of 999 MIPRs issued between September 2002 and February 2006
   with transactions in the accounting system between October 1, 2005, and
   September 6, 2006. The 65 MIPRs reviewed were valued at $25 million out of a
   universe of transactions worth $399 million. Our judgmental sample included
   MIPRs of large and small values, and MIPRs prepared in each of the DSS
   components. We reviewed several aspects of each MIPR, including whether a
   determination and finding document was prepared, when required; whether the
   delivery requirements were stated clearly; whether the required supplies or
   services were described adequately; and whether obligations were recorded in a
   timely manner. We also assessed whether the funding was used in accordance
   with appropriations law and regulations.

   Use of Computer-Processed Data. We used computer-processed data, including
   data from the accounting transaction database provided by DSS. We did not


                                       25
perform a formal reliability assessment of the computer-processed data.
However, we compared the data with supporting documentation to verify that
data from the database were accurate.

Use of Technical Assistance. We obtained technical assistance from the DoD
Office of the Inspector General, Office of General Counsel to ensure accurate
interpretation and application of several appropriation and contracting laws and
regulations. Specifically, the Office of General Counsel provided legal advice on
the determination of potential violations of the Antideficiency Act and
compliance with the FMR.

Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of three high-risk areas: DoD Financial Management,
DoD Contract Management, and DoD Personnel Security Clearance Program.




                                   26
Appendix B. Prior Coverage
      During the last 5 years, the GAO and the DoD IG have issued eight reports
      discussing DSS FM and the DoD personnel security clearance program.
      Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-06-748T, “New Concerns Slow Processing of Clearances
      for Industry Personnel,” May 17, 2006

      GAO Report No. GAO-06-747T, “DoD Personnel Clearances: Funding
      Challenges and Other Impediments Slow Clearances for Industry Personnel,”
      May 17, 2006

      GAO Report No. GAO-05-842T, “Some Progress Has Been Made but Hurdles
      Remain to Overcome the Challenges that Led to GAO’s High-Risk Designation,”
      June 28, 2005

      GAO Report No. GAO-05-207, “High-Risk Series,” January 2005

DoD IG
      DoD IG Report No. D-2007-083, “Transition Expenditures for DoD Personnel
      Security Investigations for FY 2005,” April 10, 2007

      DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on
      DoD Purchases Made Through Non-DoD Agencies,” January 2, 2007
      DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the
      National Aeronautics and Space Administration,” November 13, 2006

      DoD IG Report No. D-2003-112, “Contracting Practices of the Defense Security
      Service for Personnel Security Investigations,” June 27, 2003 (For Official Use
      Only)




                                         27
Appendix D. Status of DSS Policies and
            Procedures for FM Functions
   As of August 2007, under the direction of the current DSS Director and Acting
   Comptroller (who, as of May 2007, became the Chief Financial Officer), DSS
   identified approximately 19 different policies and procedures to be developed or
   updated to improve the internal controls in the FM Division. The 19 policies and
   procedures were in various stages of development: 5 had been issued; 7 were in
   draft format; and the remaining 7 had yet to be started. Below is a detailed listing
   of the 19 policies and procedures by stages.

          •   DSS developed and issued five policies and procedures addressing the
              following:

                     — Triannual Reviews, dated January 12, 2007;
                     — Problem Disbursements, dated January 19, 2007;
                     — Federal Employees Compensation, dated April 13, 2007;
                     — Civilian Pay, dated June 22, 2007; and
                     — PSI Billing Process, dated August 1, 2007.
          •   DSS had seven policies and procedures in draft format addressing the
              following:

                     — Government Purchase Card,
                     — Resource Management Handbook,
                     — Commitment and Obligations,
                     — Accrued Unfunded Leave Liability,
                     — Accounting for Leases,
                     — Plant, Property, and Equipment, and
                     — Budget Execution.

          •   DSS had identified seven policies and procedures for development, but
              had not started developing them. They will address the following:

                     — Accounts Receivable,
                     — Audited Financial Statements,
                     — Defense Travel System and Permanent Change of Station
                       Travel Policy,
                     — Intra-government Procedures,
                     — Maintenance and Disposition of Records,
                     — MIPR Processing, and
                     — Processing SF 1080.




                                        29
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
   Director, Defense Security Service
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform



                                          30
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Kimberley A. Caprio
Rhonda L. Ragsdale
Patrice L. Berry
Robert P. Goldberg
Patrick M. Sampson
Cynthia G. Williams
Maurice L. Foster
Tabitha J. Lemley
Burrell C. Leary
Wilvia Espinoza
Sharon D. Walker
Patricia A. Papas
Allison E. Tarmann




                                   31
